<html>
<title> - FRUSTRATED TRAVELERS: RETHINKING TSA OPERATIONS TO IMPROVE PASSENGER SCREENING AND ADDRESS THREATS TO AVIATION</title>
<body><pre>[Senate Hearing 114-691]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-691

                  FRUSTRATED TRAVELERS: RETHINKING TSA
   OPERATIONS TO IMPROVE PASSENGER SCREENING AND ADDRESS THREATS TO 
                                AVIATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                              JUNE 7, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-128 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                  Christopher R. Hixon, Staff Director
              Jose J. Bautista, Professional Staff Member
   Servando H. Gonzales, U.S. Customs and Border Protection Detailee
         Brooke N. Ericson, Chief Counsel for Homeland Security
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
     Stephen R. Vina, Minority Chief Counsel for Homeland Security
         Abigail A. Shenkle, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Tester...............................................    15
    Senator Enzi.................................................    17
    Senator Ernst................................................    18
    Senator Ayotte...............................................    20
    Senator Peters...............................................    22
    Senator Lankford.............................................    24
    Senator Portman..............................................    26
    Senator Heitkamp.............................................    28
    Senator McCaskill............................................    32
Prepared statements:
    Senator Johnson..............................................    39
    Senator Carper...............................................    41

                                WITNESS
                         Tuesday, June 7, 2016

Hon. Peter V. Neffenger, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security...........     4
Hon. John Roth, Inspector General, U.S. Department of Homeland 
  Security.......................................................     7
Jennifer Grover, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office...............................     9

                     Alphabetical List of Witnesses

Grover, Jennifer:
    Testimony....................................................     9
    Prepared statement...........................................    68
Neffenger, Hon. Peter V.:
    Testimony....................................................     4
    Prepared statement...........................................    43
Roth, Hon. John:
    Testimony....................................................     7
    Prepared statement...........................................    56

                                APPENDIX

Responses to post-hearing questions for the Record
    Mr. Neffenger................................................    89
    Mr. Roth.....................................................   118
    Ms. Grover...................................................   120

 
                         FRUSTRATED TRAVELERS:
  RETHINKING TSA OPERATIONS TO IMPROVE PASSENGER SCREENING AND ADDRESS
                          THREATS TO AVIATION

                              ----------                              


                         TUESDAY, JUNE 7, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:14 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Enzi, Ayotte, 
Ernst, Sasse, Carper, McCaskill, Tester, Baldwin, Heitkamp, 
Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order. I apologize for my tardiness. What should have taken 10 
minutes took an hour. But, I want to welcome the witnesses and 
try and catch my breath. I appreciate your testimonies. 
Obviously, there is a fair amount of interest in this hearing.
    I think, at the heart of what is currently ailing the 
Transportation Security Administration (TSA), is the fact that 
we really have two completely contradictory goals. On the one 
hand, we want efficient throughput, so we can get passengers to 
their flights on time. And, at the same time, we need to be 100 
percent secure.
    All of this is being driven--we have to understand that the 
root cause of the problem here is Islamic terrorism. Since the 
inception of the TSA, we have spent about $95 billion just on 
TSA alone. The cost of Islamic terror to the world--to the 
civilized world--is enormous. So, if you really want to talk 
about addressing the root cause of the problem, we have to 
defeat Islamic terrorists where they reside.
    But, again, I appreciate all of the witnesses' testimonies. 
The fact that we consciously made the decision to decrease the 
number of TSA workers--obviously, it did not work out very 
well. I appreciate the fact that we are beefing up training--a 
``Unity of Effort initiative.'' All of these things are 
positive signs. I appreciate the fact that, Admiral Neffenger, 
you are working very cooperatively with both the Department of 
Homeland Security's (DHS's) Office of the Inspector General 
(OIG) and the Government Accountability Office (GAO). It comes 
through very clear in testimony.
    So, again, I just apologize for being late. I do ask 
unanimous consent that my written statement be included in the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    With that, I will turn it over to Senator Carper and I will 
catch my breath.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Mr. Chairman, we are glad you are here. 
There were a couple of trains that were shot out from under me 
coming down from Delaware, so I know the feeling.
    Thank you all for joining us this morning. We are delighted 
that you are here. This is going to be a good hearing. This is 
going to be a really good hearing. It is a very timely hearing.
    As we all know, the Transportation Security Administration 
was created in the wake of the attacks on September 11, 2001 
(9/11). And, we understand well the terrorist threat to our 
aviation system, which the Agency was created to combat. Having 
said that, though, we oftentimes fail to acknowledge an 
undeniable tension that exists--as alluded to by the Chairman--
an undeniable tension that exists at the core of TSA's mission.
    On the one hand, we ask TSA to screen millions of 
passengers and their luggage carefully every day to prevent 
explosives, weapons, and other dangerous items from finding 
their way on board our aircrafts.
    On the other hand, millions of passengers--we have been 
among them--we have all been there--want to get on board our 
airplanes on time and without the aggravation that security 
screening oftentimes can bring.
    Given the long wait times we have recently witnessed--at 
security checkpoints at a number of airports across America--we 
know that it can be difficult to strike the right balance 
between security and convenience. Some might even be tempted to 
say that we cannot have both--that effective security measures 
invariably bring with them inconvenience, lines, and even 
missed flights. I disagree. In fact, I believe that many of the 
problems we have witnessed at some of our airports are 
eminently solvable. But, first, we need to better understand 
the scope of the challenge and its genesis.
    After the DHS OIG produced a very troubling report last 
year, revealing vulnerabilities at TSA checkpoints, Admiral 
Neffenger took several steps to tighten security. And, while 
the steps that he and his team have taken have contributed to 
longer waits for some, there are other reasons why TSA has 
struggled lately. And, I want to talk about a couple of them.
    Resource constraints and increased air travel have played a 
significant role. TSA is being asked, literally, to do more 
with less. While inept management and ineffective leadership at 
some airports has been a major factor, the truth is that 
staffing at TSA has dropped by more than 10 percent since 2011. 
At the same time that staffing has gone down, passenger volume 
at our airports has increased by more than 10 percent. TSA must 
be nimble enough to handle this growth in air travelers, 
especially the surges that occur during the busy summer travel 
season--like we are seeing now--and at other times during the 
year.
    The good news is that Admiral Neffenger and Homeland 
Security Secretary Jeh Johnson have moved quickly to reduce 
wait times and to do so without compromising security. Is there 
more that we can do? Sure there is--and I am going to talk 
about a couple of those things.
    But, based on the reports that we have seen, these efforts 
are already beginning to bear fruit. They helped to keep 
passengers moving during the busy Memorial Day weekend. But, 
let me just say this: Security on our airplanes and security in 
our airports--these are shared responsibilities. It cannot all 
be on TSA. It cannot all be on Admiral Neffenger and his 
leadership team. This is a shared responsibility.
    Congress must work with the Administration to ensure that 
the Agency has the resources it needs to effectively carry out 
their mission. Funding levels in appropriations bills awaiting 
action--we have some appropriators here. I just want to say 
that you folks are doing a good job, with respect to funding 
levels for TSA. And, the bills that are awaiting action in the 
Senate move us--and I think they move TSA--in the right 
direction. We need to enact those bills.
    But, airports and air carriers have an important 
responsibility to help reduce wait times as well. I have been 
very encouraged by the willingness of private sector 
stakeholders to step up and contribute their own resources and 
ideas to solving this problem. A longer-term solution is being 
demonstrated--we just talked about it back in the anteroom with 
Admiral Neffenger. It is being demonstrated, in real time, 
today, at London's Heathrow Airport. In the spirit of my 
saying, ``Find out what works and do more of that,'' TSA 
launched a similar initiative last month. It is called an 
``Innovation Lane''--there are a couple of them down in 
Hartsfield-Jackson Atlanta International Airport--and I am sure 
we will hear more about them, today--and the partnership, 
between TSA and Delta Air Lines, to improve passenger 
throughput by, I am told, as much as 30 percent.
    While that concept shows great promise over the long haul, 
airlines have already taken a number of other steps that can 
make a difference, now, such as reassigning their own employees 
to help TSA in some places. Perhaps, the most important step we 
can take, though, is to continue to dramatically grow 
participation in trusted traveler programs, like TSA PreCheck, 
that speed screening for vetted passengers and shorten wait 
times for those not in TSA PreCheck lines, too. And, I am 
encouraged by the steps that TSA has taken so far to increase 
TSA PreCheck enrollments. We are told that enrollments have 
soared, from 3,500 people, per day, getting into TSA PreCheck a 
year ago, to, roughly, 16,000 a day at the end of last month. 
We look forward to learning more today about the additional 
ways that we can encourage enrollment in this program.
    In closing, it is important to keep in mind that there are 
still very real security threats to our aviation system. They 
are not going away. These guys are not stupid. They are trying 
to come up with new formularies in order to create bombs that 
are even harder for dogs to detect.
    Today's solution may not work tomorrow. Those seeking to 
wreak havoc are always changing their tactics and these 
evolving threats require that we constantly adjust what we do 
at our airport security checkpoints and on our airplanes.
    Finally, we need to stay on top of the growth in air travel 
and the changing travel patterns, so that TSA and its partners 
are not caught, like they were, recently, dealing with 
logistical challenges that they are not prepared for. This is 
why strong leadership is so critical in order to see us through 
these very challenging times.
    Leadership is a lot like integrity. Senator Alan Simpson 
used to say, ``Integrity--if you have it, nothing else matters. 
Integrity--if you do not have it, nothing else matters.'' The 
same is true of leadership. And, I think we are blessed with 
enlightened leadership and we are grateful to you, Admiral 
Neffenger, for your willingness to serve. This burden is not 
just for you and your team to bear. This is a shared 
responsibility. Each of us needs to do our part and, if we do, 
we will be much safer as a Nation. Let us roll.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Admiral Neffenger. I do.
    Mr. Roth. I do.
    Ms. Grover. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Admiral Peter Neffenger. Admiral 
Neffenger is the Administrator of the Transportation Security 
Administration. Administrator Neffenger manages a workforce of 
nearly 60,000 employees and is responsible for security 
operations at, approximately, 440 airports throughout the 
United States. Prior to joining TSA, he served as the 29th Vice 
Commandant of the U.S. Coast Guard (USCG). Admiral Neffenger.

       TESTIMONY OF THE HONORABLE PETER V. NEFFENGER,\1\ 
  ADMINISTRATOR, TRANSPORTATION SECURITY ADMINISTRATION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Admiral Neffenger. Thank you, Chairman. Good morning, 
Chairman Johnson, Ranking Member Carper, and distinguished 
Members of the Committee. Thank you for the opportunity to 
appear before you today. I sincerely appreciate the Committee's 
oversight of and support for TSA and of our important 
counterterrorism mission.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Neffenger appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    Since taking office on July 4 last year, I have traveled, 
extensively, to observe our operations and to meet with our 
employees--and they are truly impressive. Their patriotism, 
their sense of duty, and their commitment to our national 
security mission is exemplary. And, when I appeared before the 
Committee nearly one year ago, I committed to addressing the 
immediate challenges we faced in our security mission, while 
positioning TSA for the future. And, to that end, over the past 
11 months, we have undertaken a systematic and deliberate 
transformation of TSA. Our strategy has included three 
complementary elements:
    First, focusing on security effectiveness. In the wake of 
the Inspector General's finding, that was our fundamental 
mission--and that is our most important mission.
    Second, resourcing to meet demand.
    And, third, transforming the system.
    We are holding ourselves accountable to high standards of 
effectiveness and we are supporting our front-line officers in 
their critical counterterrorism mission.
    We have renewed our focus on security. We have revised 
alarm resolution procedures. We have ceased engaging in risky 
practices. We have retrained the entire workforce. And, we have 
retooled our performance measures to ensure we stay focused on 
our critical security mission.
    With Congress' help, we overhauled our approach to training 
at all levels of the Agency, including leadership training. 
And, we established the first ever TSA Academy on January 1 of 
this year, with initial course offerings focused on training 
front-line Transportation Security Officers (TSOs). This 
intensive training enables TSA to achieve consistency, develop 
a common culture, instill core values, and raise performance 
across the entire workforce.
    Second, we are resourcing to meet demand. With help from 
Congress, we halted the reduction of our screening workforce 
this past year. We are making investments in new technology, 
converting part-time officers to full-time, and shifting 
screeners and K-9 resources to high-volume airports. We have 
begun hiring into the Federal Air Marshal Service (FAMS) 
remaining consistent with our new concept of operations. And, 
we are conducting our operations more effectively.
    We completed a review of personnel policies and practices, 
which led to a number of significant changes. And, we are 
designing a Human Capital Management (HCM) system to address 
recruitment, development, promotion, assignment, and retention.
    Third, we are transforming TSA in fundamental ways to 
ensure a mature, enterprise-wide approach needed to have an 
Agency prepared to address the very real and sustained 
terrorist threat. We have reinvigorated partnerships with the 
airlines, airport operators, and the trade and travel 
industries. We are working closely with Congress to address the 
ongoing demands of our security mission.
    We are overhauling management practices across the Agency. 
We conducted an independent review of our acquisition program. 
We are building a new planning, programming, budgeting, and 
execution process. We are modernizing. Among other initiatives, 
our innovation team is taking advantage of existing technology 
to establish automated lanes at selected checkpoints. And, as 
noted, through a public-private partnership with Delta Air 
Lines, we have, recently, installed two new automated lanes. 
These were done in just 9 weeks and they became operational 
last month, in Atlanta. Initial results show dramatic 
improvements. We have similar projects planned with other major 
airlines and airports in the coming months.
    This year, TSA is projected to screen some 742 million 
people. By comparison, in 2013, TSA screened 643 million 
people. So, our approach to screening requires a similar 
transformation and we are meeting that challenge head on. With 
the support of Congress, for our recent reprogramming request, 
we have brought on board 768 new TSA officers. Our Federal 
Security Directors (FSDs) have redeployed Behavior Detection 
Officers (BDOs), as needed, to screening functions. We placed 
additional K-9 teams at our highest-volume airports and 
activated our volunteer National Deployment Force to surge to 
airports of greatest need--and we are beginning to see positive 
results.
    For example, nationwide, over Memorial Day, 99 percent of 
passengers waited less than 30 minutes in standard security 
lines; 93 percent of passengers waited less than 15 minutes; 
and, in TSA PreCheck lines, 93 percent of passengers waited 
less than 5 minutes.
    Over that 6-day period, over this last Memorial Day, we 
screened 10.3 million passengers. That is a 3-percent increase 
over the same period last year--and we did so effectively--and 
we did so in a way that protected the system.
    Four factors, in my opinion, have contributed to our 
ability to move people more efficiently and effectively through 
checkpoints.
    First, the new resources that we received from Congress, 
through the reprogramming and other proactive efforts, have 
allowed us to effectively open more checkpoint lanes at peak 
periods to manage the volume.
    Second, we placed a strategic focus on the seven largest 
airports in the system, because, if you can prevent problems 
from happening there, then you do not have problems that 
cascade throughout the system.
    Third, we established a National Incident Command Center 
(NICC). This allows us to focus, daily, on screening 
operations, hour by hour, at the seven largest airports, to 
look to see what the challenges are, as they develop--and to 
move resources, in nearly real time, to address those 
challenges. We have now expanded that to the top 20 largest 
airports--and this is a full-time command center, which will 
stay in operation.
    And, finally, we are conducting daily operational calls 
from that command center, airport-by-airport, with the 
airports, the airlines, and the Federal Security Directors, in 
order to ensure collaboration, information sharing, and the 
real-time movement of necessary resources.
    None of this would have been possible without the 
tremendous efforts of our front-line officers. They have 
performed admirably and they always deserve our thanks. But, we 
are not celebrating and we are not letting up. Passenger volume 
will remain high throughout the summer and we will need to 
continue to manage resources aggressively.
    In the short term, TSA, airlines, airports, Congress, and 
travelers, working together, can improve the passenger 
experience while maintaining security. I would like to thank 
the airlines and the airports, in particular, for hiring staff 
to support non-security duties in the airports. But, longer 
term, we know we have to continue to right-size TSA to ensure 
we meet the demands being placed upon us. We look forward to 
working with Congress to get it right, both in terms of 
staffing and in developing new approaches to aviation security.
    Our front-line officers are focused on their security 
mission. It is up to us to ensure that they have what they 
need.
    Thank you for the opportunity to appear today, thanks for 
the Committee's support, and I look forward to your questions.
    Chairman Johnson. Thank you, Admiral Neffenger.
    Our next witness is John Roth. Mr. Roth is the Inspector 
General of the Department of Homeland Security. Before joining 
the Office of the Inspector General, he served as the Director 
of the Office of Criminal Investigations (OCI) at the Food and 
Drug Administration (FDA) . Mr. Roth.

  TESTIMONY OF THE HONORABLE JOHN ROTH,\1\ INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Thank you. Chairman Johnson, Ranking Member 
Carper, and Members of the Committee, thank you for inviting me 
here to testify this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Roth appears in the Appendix on 
page 56.
---------------------------------------------------------------------------
    About a year ago, I testified before this Committee at a 
hearing about TSA. During that hearing, I testified that we 
remain deeply concerned about TSA's ability to execute its 
important mission. At the time, I testified that TSA's reaction 
to the vulnerabilities that our audits uncovered reflected 
TSA's failure to understand the gravity of the situation.
    Since that time, we have conducted more audits and released 
more reports that challenge TSA's management of its programs 
and operations.
    However, I believe that we are in a different place than we 
were last June. As a result of our audit reports and a vigorous 
response by DHS, TSA is now, for the first time in memory, 
critically assessing its deficiencies in an honest and 
objective light. TSA's leadership has embraced the OIG's 
oversight role and appears to be addressing vulnerabilities.
    However, we should not minimize the significance of the 
challenges that TSA faces and the risk that failure brings. The 
stakes are enormous. Nowhere is the asymmetric threat of 
terrorism more evident than in the area of aviation security. 
TSA cannot afford to miss a single, genuine threat without 
catastrophic consequences--and yet, a terrorist only needs to 
get it right once.
    Fortunately, TSA's response to our most recent testing has 
been significant. DHS and TSA instituted a series of changes 
well before our audit was even final. As part of that effort, 
TSA initiated a ``tiger team'' program that resulted in a list 
of 22 major corrective actions that TSA either has taken or is 
planning to take. We are, generally, satisfied with the 
response we have seen at TSA. These efforts have resulted in 
significant changes to TSA leadership, operations, training, 
and policy.
    We will continue to monitor TSA's efforts to increase the 
effectiveness of checkpoint operations and we will continue to 
conduct covert testing. In fact, we have a round of covert 
testing scheduled for this summer and are presently developing 
the testing protocols. Consistent with our obligations under 
the Inspector General Act of 1978, we will report our results 
to this Committee as well as to other Committees of 
jurisdiction.
    We applaud TSA's efforts to use risk-based passenger 
screening, such as TSA PreCheck, because it allows TSA to focus 
on high-risk or unknown passengers, instead of known, vetted 
passengers, who pose less risk to aviation security.
    However, while reliance on intelligence is necessary, we 
believe that TSA, in the past, has overstated the effect of a 
reliance on intelligence and a risk-based approach.
    The hard truth is that, the vast majority of the time, the 
identities of those who commit terrorist acts are, simply, 
unknown to or misjudged by the intelligence community (IC). 
What this means is that there is no easy substitute for the 
checkpoint. The checkpoint must, necessarily, be intelligence 
driven, but the nature of terrorism, today, means that each and 
every passenger must be screened in some way.
    Unfortunately, TSA made incorrect budget assumptions in 
2014 and 2015 about the impact that risk-based security would 
have on its operations. For the Administration's 2016 budget, 
for example, TSA believed that it could reduce the screener 
workforce by more than 1,600 screeners--full-time employees--
stating that risk-based security requires fewer resources and 
would allow TSA to transition to a smaller workforce.
    Likewise, in the Administration's Fiscal Year (FY) 2015 
request, TSA asked for a reduction of over 1,400 full-time 
screeners, based on claimed deficiencies and risk-based 
security.
    However, our testing and audits found that TSA had been 
incurring unacceptable risks in its approach. And, TSA has now 
eliminated some of the more dangerous practices that we 
identified. Moreover, we believe that, even if TSA had not 
changed its approach to screening, the planned decline in the 
screener workforce was far too optimistic. As a result, the 
long lines that we are seeing this summer are not mysterious: 
TSA, because of the decisions it made in 2014, has fewer 
screeners, but is facing more passenger volume than ever 
before.
    We will continue to examine TSA's programs and operations 
and to report our results. In addition to the new round of 
penetration testing, we are in the process of conducting a 
number of audits and inspections, including a look at the 
Federal Air Marshal Service, their use of Behavior Detection 
Officers, and TSA's oversight of the badges that are used to 
get access to secure parts of the airport.
    Mr. Chairman, this concludes my testimony. I welcome any 
questions that you or other Members of the Committee may have.
    Chairman Johnson. Thank you, Inspector General Roth.
    Our next witness is Jennifer Grover. Ms. Grover is the 
Director of the Homeland Security and Justice (HSJ) team at the 
Government Accountability Office. In this position, she 
oversees GAO's reviews of TSA programs and operations. Ms. 
Grover.

 TESTIMONY OF JENNIFER GROVER,\1\ DIRECTOR, HOMELAND SECURITY 
       AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Grover. Good morning, Chairman Johnson, Ranking Member 
Carper, other Senators, and staff. In recent weeks, travelers, 
Members of Congress, and others have raised concerns about long 
airport security lines. As you have both noted this morning, 
one of the challenges inherent in TSA's mission is the tension 
between taking the time to do the job right and moving 
passengers through as efficiently as possible. But, first and 
foremost, TSA is responsible for ensuring transportation 
security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Grover appears in the Appendix on 
page 68.
---------------------------------------------------------------------------
    My statement today will focus on two points. First, changes 
that TSA made to improve the security effectiveness of its 
expedited screening programs, which likely contribute to 
today's long lines. And, second, new information showing that 
TSA should improve its oversight of screener performance to 
ensure that screeners are carrying out their tasks accurately.
    First, regarding expedited screening, as we have heard 
already this morning, TSA has made recent changes to tighten 
security, which likely contribute to the long screening lines. 
In November 2015, TSA modified its risk assessment rules, which 
reduced the number of passengers that were automatically 
designated as low risk. At the same time, TSA cut back, 
significantly, on its use of ``Managed Inclusion,'' which is 
used to divert non-TSA PreCheck passengers into the TSA 
PreCheck lanes when they would otherwise be underused. TSA 
still uses this program at airports where passenger screening 
canines are available, but has discontinued its use otherwise.
    According to TSA, these changes were necessary to improve 
the security of their expedited screening programs and resulted 
in a 20-percent decrease in the number of passengers receiving 
expedited screening. Despite the changes that TSA has made, GAO 
continues to be concerned about the effectiveness of the 
remaining ``Managed Inclusion'' program. We await the results 
of tests, which TSA is planning, to evaluate the security 
effectiveness of the program, as we recommended in December 
2014.
    My second point is about TSA's oversight of its screener 
performance. Our recent review of screener training and testing 
showed that TSA could improve its oversight of the screeners' 
ability to identify prohibited items. TSA conducts tests to 
monitor screener performance. However, we found that much of 
the testing data was missing over multiple years. For example, 
screeners are regularly tested on their ability to identify 
images of threat items hidden in carry-on baggage and TSA 
policy requires FSDs, who are the local TSA officials, to 
submit the data to headquarters.
    In every year from 2009 through 2014, TSA headquarters did 
not receive any of this data from a substantial percentage of 
airports. We recommend that TSA ensures that FSDs submit 
complete image testing results to headquarters, as required, 
for airports across the country. This is needed to confirm that 
the screener image testing is being carried out as intended and 
to allow for a future national analysis of the data for trends 
that could inform screener training.
    We also found that TSA's covert test results are not 
reliable. FSDs conduct covert testing at airports on a regular 
basis. But, when TSA headquarters brought in a contractor last 
year to independently perform the same tests, the contractor 
obtained noticeably different results. Specifically, screeners 
performed more poorly on the tests conducted by the contractor. 
TSA is in the process of determining the root cause of the 
differences, but initial results suggest that FSDs may have 
trouble obtaining anonymous role players to keep the tests 
covert. TSA has briefed its FSDs on the results and continues 
to work with the contractor to examine this issue.
    In conclusion, TSA has taken positive steps to improve the 
security effectiveness of its expedited screening programs, 
though these changes likely contribute to today's long 
screening lines. Yet, more work remains for TSA to ensure that 
screeners are carrying out their tasks accurately. TSA should 
improve its oversight of screener performance by more 
effectively collecting and monitoring screener testing data and 
by ensuring the reliability of its covert testing data.
    Chairman Johnson and Ranking Member Carper, this concludes 
my statement. I look forward to your questions.
    Chairman Johnson. Thank you, Ms. Grover.
    By the way, I appreciate the attendance. But, because we 
have pretty strong attendance, we will limit questioning rounds 
to 5 minutes. And, I will start.
    Admiral Neffenger, we are putting an awful lot of weight on 
the expedited screening procedures--TSA PreCheck--that type of 
thing. What metric do you use or what do we know about how--how 
much faster is the throughput of that program?
    Admiral Neffenger. So, the difference between an expedited 
lane and a standard lane, roughly--at peak, if you have an 
efficient team working it, you can move about 250 people, per 
hour, through a TSA PreCheck lane. It is about 150, per hour, 
through a standard screening lane.
    Chairman Johnson. So, it is about 75 percent faster--and 
that is just off of the top of my head.
    Admiral Neffenger. It is a significant improvement. That is 
right.
    Chairman Johnson. What percent--because we know the number 
of people that signed up for TSA PreCheck, but I do not know 
how often they travel. What percent of passengers, currently, 
are in TSA PreCheck?
    Admiral Neffenger. Well, on a daily basis, we move about 30 
percent of the traveling population through TSA PreCheck lanes. 
So, that is the combination of people who have signed up for 
TSA PreCheck, people who are in cleared populations, like 
Department of Defense (DOD) individuals, who hold security 
clearances and the like, and then, a very small piece, based 
upon rules.
    Chairman Johnson. And, we are all concerned a little bit 
about that algorithm, correct?
    Admiral Neffenger. Yes, sir.
    Chairman Johnson. This is what the Inspector General and 
GAO were a little concerned about that, I guess, they call that 
``Managed Inclusion.''
    Admiral Neffenger. Well, I would not call that ``Managed 
Inclusion.'' ``Managed Inclusion'' was the practice of taking 
truly unknown people and randomly assigning----
    Chairman Johnson. OK.
    Admiral Neffenger. We do not do that anymore. So, these are 
people who are looked at--they are looked at through a rules-
based calculation and assigned a risk value. Again, it is a 
very small population.
    Chairman Johnson. But, you are looking at that because we 
are a little concerned about that, correct?
    Admiral Neffenger. Yes, sir.
    Chairman Johnson. I do know that there are about 200 
adjudicators that are waiting to be approved by TSA. I know, in 
Milwaukee, people cannot sign up and get their application--
they cannot apply. There is, I think, about a 45-day waiting 
period. Where are you, in terms of approving those 
adjudicators, so more people can sign up for TSA PreCheck?
    Admiral Neffenger. Well, we have been working very closely 
with the vendor. We, actually, have all of the capacity we need 
to approve it. As long as we get a completed application--they 
have to fill out the standard form that we all fill out for 
security clearances. If we get a completed application, then we 
can process that application inside of 7 days--and that is the 
turnaround that we have right now.
    Chairman Johnson. I do know they are waiting at the 
Milwaukee airport. That application office is clogged. So, if 
you would check on that----
    Admiral Neffenger. I will check on that.
    Chairman Johnson. I would appreciate that.
    Admiral Neffenger. Yes, sir.
    Chairman Johnson. Where are we, in terms of new technology? 
You talked about two new automated lanes in Atlanta. Can you 
describe those in greater detail?
    Admiral Neffenger. I will. So, these are two lanes--this is 
existing equipment. This is equipment that I first saw when I 
visited London's Heathrow Airport last year. Essentially, if 
you just think of the current system--it is a fully manual 
system. You have to push your bag along a table. You have to 
engage the conveyor belt at the X-radiation (X-ray) machine. 
Then, you have to pull your bag out on the other side. And, it 
is a single-file system. You are in line behind whoever is in 
front of you and until their stuff moves through.
    So, first, it is an automated conveyor belt--so it is an 
automated roller system--an automatic bin return. There are 
five stations where individuals can stand, so you can move five 
people at a time up to the checkpoint.
    As you put things in your bin and push it onto the conveyor 
belt, you can cycle right in. So, there is no waiting for the 
person in front of you.
    And then, on the other end, it has an automatic divert. The 
bins have radio frequency identification (RFID) technology on 
them, so they are tracked to the individual. It makes it much 
easier to divert a bag if there is an image of concern. And, it 
pulls the person whose bag has been diverted out of the line.
    The bottom line is we are seeing, just in the initial phase 
of operating these two lanes, about a 30-percent increase in 
throughput--at the same level of effectiveness. It also allows 
us to be much more effective on our end. To GAO's point, one of 
the problems that we have is giving real-time, right-now 
feedback to an officer on their performance. This does that. It 
allows us to do real-time performance monitoring.
    Chairman Johnson. Are you looking at just better detection 
technology--better than the Advanced Imaging Technology (AIT) 
machines?
    Admiral Neffenger. Yes, sir.
    Chairman Johnson. Are you really exploring that?
    Admiral Neffenger. Yes, sir. In fact, what we are looking 
at--the next phase would be to incorporate computer tomography 
(CT) technology at the checkpoint. So, we now have a couple of 
approved systems that we can put in. We are looking to pilot 
one of those this summer. That gives us a much more defined 
ability to see what we are looking--it is a system we use in 
checked baggage and it is a substantial improvement over the X-
ray.
    Chairman Johnson. We held a hearing on the ``Dogs of DHS.'' 
From what I have learned, I am incredibly impressed by, again, 
the ability--the nose of a dog. There is no technology that can 
beat it.
    Where are you, in terms of trying to beef up the number of 
K-9 units we have?
    Admiral Neffenger. Well, as you know, TSA, itself, operates 
a little over 300 K-9 teams--of which 148 have been trained to 
do passenger screening. My goal is to get the rest of those 
trained for passenger screening. That will take about another 8 
or 9 months or so. But, I would like to see a total of about 
500 dog teams. That would allow me to really address the 
highest-volume airports in a very efficient way.
    Chairman Johnson. OK. I want to be very supportive of those 
efforts. Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    Admiral Neffenger, I want to go back to a conversation you 
and I had several weeks ago. There had been long waits and a 
lot of frustration at Chicago O'Hare International Airport. I 
urged you to go there and to see for yourself what had 
happened--what had gone wrong. And, I want to thank you for 
going. Tell us what you found. Tell us what has been done and 
what lessons you learned that you have been able to take away 
and to spread to other airports--to other security stations 
across America.
    Admiral Neffenger. Well, thank you for that--and thank you 
for the opportunity to talk about that, earlier. There are a 
couple of pieces to that answer.
    The first is: What happened in Chicago? That was truly--in 
my opinion--and in my investigation--just a failure to get 
enough lanes opened in advance of what was anticipated to be a 
significant increase in volume for that day. It was sort of the 
first day of the volume season. We saw about a 13-percent 
increase in volume from the previous week and we did not have 
enough lanes open. And, once you are behind, it is very 
challenging to catch up.
    So, the first thing we did was to look at what caused that 
and to make some immediate operational changes--opening a 
checkpoint earlier and making sure that the lanes are fully 
staffed when you do. We put a new, temporary management team in 
place, which, I am pleased to say, within 24 hours had really 
turned that situation around--and we have not seen a repeat of 
that.
    What we learned from that, though, is that you really do 
need to pay attention to these large hub airports. And, out of 
that really came the development of a daily National Command 
Center focused, specifically, on screening operations. We have 
always focused on our daily operations, but you need to really 
look at screening, checkpoint by checkpoint, at the major 
airports across the country. And, in this case, we decided to 
focus, for the Memorial Day weekend, on the seven largest 
airports. These are the big, multi-hub airports where all of 
the traffic originates, essentially. And, if you start to have 
problems in one, you are going to cascade it across the system. 
And so, by doing that--by taking the resources that we were 
able to put into place as a result of the reprogramming--
overtime hours, new hires, as well as converting people from 
part-time to full-time--we dramatically increased the staffing 
available. And then, we watch it very carefully, on a daily 
basis, to make sure it is applied to the right locations.
    So, the lesson we learned out of that was that you have to 
be laser-focused on the actual operations, airport by airport, 
at the largest airports. And, you cannot let yourself get 
behind, because, once you are behind, it is like a traffic jam. 
It is very challenging to clear it out.
    Senator Carper. Alright. Thank you so much. I talked 
earlier about leadership--the importance of leadership. I think 
we are blessed with the leadership that you provide. Talk to us 
about your ability to put in place around you the kind of 
leadership team that you need in order to lead TSA. And, also 
talk about the flexibility you have to put in place, whether it 
is at Chicago O'Hare or at other airports--the kind of 
leadership teams that will better ensure that we do not see the 
kind of jam-ups and confusion that we witnessed at Chicago 
O'Hare.
    Admiral Neffenger. Well, I have made a number of leadership 
changes over the course of the past year--some just in the past 
few months. It is critical that you get the right leaders in 
the right places. For the first time ever, we now have a Chief 
of Operations for TSA. Before that, we had a series of 
operational programs that, in my opinion, were not fully 
integrated. And, as a result, you can have a problem that 
arises without a vision for how to deal with that. So, we have 
a Chief of Operations, now. I have a new Deputy Administrator, 
I have a new Chief of Staff, and I have a new head of my 
Screening Operations section. Those have made a substantial 
difference. And, we have made some field changes, where 
necessary, to ensure that you have the right people in the 
right place.
    Senator Carper. Good. Thank you.
    The Chairman asked about the issue of TSA PreCheck 
contractor and staffing backlogs. I have heard some reports 
that there was a backlog. And, the folks that, actually, vet 
the TSA PreCheck applicants, there were not enough of them. 
And, there was a delay--as much as 40 days--in doing that 
vetting process. And, I think I just heard you say earlier, in 
response to the Chairman's question, that that is really a 7-
day wait--and that is not extraordinary. Is that correct?
    Admiral Neffenger. Yes, I think we have fixed the problem, 
with respect to clearing the contractor's employees, who do the 
vetting work. So, we have a process in place. We can handle 
anybody they give us--and we can turn it around very quickly.
    What we are now working with the contractor on, is 
expanding the number of mobile enrollment centers ensuring that 
we balance their staffing workload, so that they provide 
staffing to the highest-volume locations.
    Senator Carper. Good. Very briefly, tell us, what do we 
need to do? We are all about doing our jobs. We want you to do 
your job. We want your folks to do their jobs. What do we need 
to do, in our jobs, to enable all of you to be more effective?
    Admiral Neffenger. That is a great open-ended question. 
Well, Congress has been extremely supportive this past year. 
You have helped us to grow back some of the staff that we 
needed. I do believe that TSA is smaller than it needs to be in 
order to meet the demands of the system. It was extremely 
helpful to get those 1,600 people, who we were slated to lose, 
back on the books. The TSA Academy has been a cultural game 
changer for us. And, more importantly, this recent 
reprogramming--we have another reprogramming that is pending. 
It has been approved by the Senate. It is pending before the 
House right now, which would allow us to bring on additional 
staff and, more importantly, allow us to continue to convert 
more part-time workers to full-time. Those are very important, 
because that helps us to address the challenge of just getting 
lanes manned at peak periods.
    The second piece is this very real need to transform the 
system. I mentioned those two automated lanes. That is an 
example of the ways in which we need to modernize and bring TSA 
into the 21st Century. And, this is not technology that does 
not exist. This is just using existing technology. I have 
technology--information technology (IT) backbone systems that 
have to be upgraded. I need to connect my systems in a way that 
they are not currently connected. I cannot, currently, see the 
health of the system, because I have independently operating 
entities out there that cannot be networked together for 
cybersecurity reasons. And, I need to do a better job of 
getting real-time performance data on my workforce, which I 
currently cannot get. It is a very manual system right now.
    So, those are the kinds of things that I intend to bring 
forward to Congress, over the coming weeks, in order to show we 
have a good--I think we have a good plan moving forward and a 
good strategy for addressing that. It will help us to address a 
lot of the concerns that the Inspector General and GAO have 
raised, with respect to performance. Their work has been 
critical, in terms of informing how we go forward with this.
    Senator Carper. In closing, continue to let us know how we 
can help.
    Admiral Neffenger. Yes, sir.
    Senator Carper. Thank you.
    Chairman Johnson. We are going to do questioning in order 
of arrival. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. And, thank you for 
your service, Administrator Neffenger. And, I want to thank you 
for your employees, too. As I have told you before, I do a lot 
of flying and, maybe, with one exception, these folks have been 
very professional--and that is over the last 10 years. So, 
thank you very much--not only for what you do, but for what the 
people who serve under you do.
    I want to talk about advanced imaging technology for a 
second. We have talked about it before--and the need to get it 
deployed throughout the country. Could you talk about--and I 
know you are under budget constraints--and that might be 
something we can do, as it applies to full-body scanners. But, 
could you talk about your progress on getting full-body 
scanners to the airports that do not have them, currently? How 
is that progressing?
    Admiral Neffenger. Yes, sir. Well, we have now identified 
the number that we need in order to do that--and let me preface 
it by saying that I agree with you. I think that it is 
important that we get that capability everywhere that we need 
it, because we know that the terrorist groups are focused on 
their ability to get into the system.
    Senator Tester. The weakest link.
    Admiral Neffenger. So, we are working through the 
Administration, right now--the Department of Homeland Security 
and the Administration--to put forward what we hope will be a 
request that will allow us to purchase the additional equipment 
that we need. Not every place can actually accept one, but, 
wherever we can put one, that is the goal.
    Senator Tester. OK. Good. Thank you.
    For GAO and the IG, have you guys done any research into 
the effectiveness of magnetometers as opposed to full-body 
scanners and whether we should be concerned, on this side of 
the dais, with airports that only have magnetometers?
    Mr. Roth. During our covert testing, we sort of saw both 
types of machinery. Without getting into the details, there is 
cause for concern, in terms of not having an AIT in a specific 
facility.
    Senator Tester. Did you find the same, Jennifer?
    Ms. Grover. Yes, they do different jobs. They are also 
looking for different things and have different purposes. So, 
there is a cost when you do not have an AIT.
    Senator Tester. OK. And, Administrator Neffenger, you 
talked about new scanners that you are working on now, which 
will be more effective--which is good for you. I always worry 
about scanners--to know if I am getting radiated or not. Do you 
guys have protections? Are there parameters that you work under 
for health situations?
    Admiral Neffenger. Yes, sir. So, the scanners that I was 
referring to are really the ones that are checking the carry-on 
baggage.
    Senator Tester. Yes, but you said there would be similar 
technology applied to us.
    Admiral Neffenger. Oh, no. If I did, then I misspoke. No, 
the technology that we are currently using is non-penetrating. 
It is just radio waves bouncing off----
    Senator Tester. Super.
    Admiral Neffenger. We have no intention of using anything 
else.
    Senator Tester. OK. When I get on an airplane, I look out 
and the passengers have gone through the magnetometer or the 
full-body scanner, whichever it may be--but there are people 
that work for the airlines--there are people who work for the 
airport. Can you tell me--do they go through the same procedure 
as the passengers?
    Admiral Neffenger. Very few go through the same procedures 
as passengers. So, this is a population that has already been 
vetted against criminal databases and terrorist databases--and 
they are recurrently vetted. Some airports do screening--in the 
form of magnetometers and what might be called a ``stadium 
check'' of the bags--and then, they are subject to random 
screening throughout the day. But, the passenger screening 
environment is unique to the passengers.
    Senator Tester. It is more intense than the screening 
environment for the people who work there, would you say?
    Admiral Neffenger. I think, for passengers--remember, we 
know something about these individuals that are badged--that 
have badged access--so, you are doing continuous vetting of 
those individuals against terrorist databases and recurrent 
vetting against criminal databases.
    Senator Tester. So, Administrator, tell me what recurring 
vetting means. What does that mean? Are you vetting them 
monthly? Weekly?
    Admiral Neffenger. Daily.
    Senator Tester. Daily.
    Admiral Neffenger. Every single day, if you hold a badge, 
you are continuously vetted against the terrorist screening 
database and the extended categories that feed that database.
    Senator Tester. So, you are comfortable with it? I mean, as 
the Administrator of the TSA, you are comfortable with the 
state of our screening procedures for those employees and the 
folks who work for the airlines and the airports. That is all I 
want to know. If you are not comfortable, then----
    Admiral Neffenger. Well, I think there is more work to be 
done. I think we need to keep our eye on the insider 
population. If you have a trusted population, you need to 
continuously verify that trust--and you need to do it in a way 
that is designed to deter, detect, and, ideally, disrupt----
    Senator Tester. So, when you find contraband items with 
those employees, do you keep a record of that?
    Admiral Neffenger. We do. If we find it, we keep a record. 
And, for contraband items, we work with local law enforcement 
to deal with whatever consequences might result from that.
    Senator Tester. OK. And so, do you have the ability--if you 
find somebody that has contraband items--to get them 
terminated?
    Admiral Neffenger. Yes, sir, we do.
    Senator Tester. Thank you.
    Chairman Johnson. Senator Enzi.

               OPENING STATEMENT OF SENATOR ENZI

    Senator Enzi. Thank you, Mr. Chairman. And, I thank you all 
for the testimonies that you have provided.
    I go home pretty much every weekend--to Wyoming, which 
means flying--and I tried to get into some businesses there, 
but I found out that any business that I am not familiar with 
looks pretty simple until I take a look at it. So, that is 
probably what we are seeing as we go through airports, too. 
But, I am worried about the management at the security points, 
themselves--not about whether they are stopping the bad stuff 
or not--but about whether they are getting people through the 
lines. Several times, I have found a manager at one of these 
checkpoints and asked him some questions--like why they had 
three people training one person on how to look at a driver's 
license, instead of having two of those people helping 
somewhere else.
    I also find two podiums for one line to be able to get 
through the screening. So, they are continually holding up the 
line, because, if they let more people through, they get 
stacked up and cannot get through the X-ray machine to begin 
with. And yet, there will be another line over there that is 
not being used with X-rays. So, I am always wondering why the 
management does not say, ``Just open one podium if we can only 
open one line through there or, otherwise, take that second 
person from the podium and help to staff a second line over 
there.'' I am just not seeing any--and I am seeing the lines 
growing and growing behind me--and my result, when I have 
called in about some of these things, has been a call later 
saying, ``When you are coming through the airport, if you will 
just let us know in advance, we will make sure you get through 
security.'' I want you to know that is not the point. The point 
is I want my constituents to be able to get through the line 
just as easily--and I want to be able to do that.
    I have also seen one screener who took three times as long 
to look at the screen for the item coming through and called 
for somebody to do a bag check on almost everything that came 
through. And, nobody checked to see if that person was just 
extra careful or if they were actually finding those kinds of 
things.
    Also, at Dulles, I really like the little sign that they 
have that says how many minutes you have to wait in the 
different lines. One of the things that fascinates me here, in 
D.C., is that almost everybody is TSA PreCheck. So, the regular 
line is usually one minute. The TSA PreCheck line is 20 
minutes.
    Now, in Casper, Wyoming, when you go through, they do not 
have a TSA PreCheck line and a regular line. But, if you have 
TSA PreCheck on your ticket, they hand you this orange card 
that you can take through with you. And then, you have the same 
thing--except for having to remove your computer--you have the 
same thing as if you were in a regular TSA PreCheck line. And, 
it kind of expedites things. So, instead of taking regular 
people and putting them in TSA PreCheck lines, sometimes, 
maybe, we ought to be taking TSA PreCheck people and putting 
them in a regular line--giving them an orange card, so that 
they can be expedited.
    Another thing that I hear frequently is, ``Why are there so 
many people that do not appear to have anything to do at the 
checkpoint?'' And, my suggestion on that is the same as--it is 
that, if they do not have anything to do, is there some kind of 
a collection point where they can be out of sight at the 
moment, so that people are not counting how many people are 
just standing around? And then, there is a pool to draw from 
when there is another use for them.
    So, I guess, my question is--besides the observations that 
I have made--is there some kind of an incentive system for 
people to suggest improvements--for people that work for TSA to 
suggest improvements? And, how does that incentive system work?
    Admiral Neffenger. There is. And, as to your observations, 
one of the things that I have found--that we have found--is 
that, by focusing, as I said, daily, on screening operations, 
you start to identify some of those challenges that, maybe, you 
have seen.
    I suspect that those are problems here and there, because 
we are not seeing that widely across the system, but, what we 
can do, is rapidly identify those kinds of problems and then 
get the best practices out there.
    So, it is about front-line leadership. It is about 
supervisory leadership. And, it is the--measuring performance 
and then moving those measures of good performance to other 
places. So, that has been very helpful.
    I happen to believe that front-line people are, probably, 
some of your best sources of information for how to improve a 
process, because they see it. They live with it every day. And, 
in fact, when the people who are now operating those new 
automated lanes, down in Atlanta, first took a look at it, our 
TSOs, immediately, found even more efficient ways to operate 
it, because they, instantly, saw how much they could do 
differently as a result of that. So, we do have a program. I am 
happy to give you, for the record, kind of the details on how 
it works, how we collect information, the kinds of information 
that have come in, and then, how we put it to use back through 
the system.
    Senator Enzi. I appreciate that. My time has expired, but I 
will be submitting some questions about rural airports, where 
they have very few passengers, and some things that could be 
done there.
    Thank you.
    Chairman Johnson. Thank you, Senator Enzi. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. And, thank you to 
Senator Ayotte for allowing me to jump ahead here in the 
questioning. And, thank you to all of our witnesses. You all 
have very important jobs. We want to make sure that our 
constituents are not only traveling comfortably, but we also 
want to make sure that they are traveling safely. So, thank you 
for taking on the roles that you have.
    Administrator Neffenger, it seems as though a lot of the 
issues that we are seeing--a lot of the underlying problems at 
TSA--come from a simple mismanagement of resources. We have 
heard a number of them, today. And so, I do think that is 
something that we need to really hone in on. In Inspector 
General Roth's written testimony, he noted that recent audits 
reflect issues with TSA's stewardship of taxpayer dollars. And, 
as a straightforward example--and this is pretty blatant--but 
recent media reports revealed that TSA spent tens of thousands 
of dollars on a mobile application--and, maybe, you know where 
I am going with the ``Randomizer.'' It is a mobile application 
called the ``Randomizer.'' And, it is an arrow on the screen of 
an iPad that, randomly, tells passengers to go to the left line 
or to the right line. And, this is government spending here. 
This is the epitome of wasteful Washington spending.
    What we would like to hear is how you will assure us--and 
the American people--that TSA will take those taxpayer dollars 
and be responsible stewards of those dollars.
    Admiral Neffenger. Well, Senator, thank you for that 
question. I found that pretty outrageous, too. As you know, 
that application was purchased, I think, in the 2013 
timeframe--and we do not use it anymore, because we have 
stopped that process of randomly including people.
    I am very concerned about that. One of the things I did, 
when I was in the Coast Guard, was work on reforming our entire 
acquisition process--really setting clear requirements for why 
we do what we do and ensuring that those requirements lead to 
capability as well as ensuring that you do not buy capability 
that you do not need at a higher price than you should be 
paying for it.
    And so, when I first got here--within the first month--I 
brought in the Defense Acquisition University (DAU), which, as 
you know, is a semi-independent arm of DOD that looks at how we 
execute government procurement. And, they conducted a pretty 
in-depth review, over about a 3-month period, of our 
acquisition program. They have made a number of substantive 
recommendations, which we are beginning to put into place now. 
And, we are working with the Department and our other overseers 
to do that.
    I do not want to see us spend that kind of money. The money 
that we have is so critically important to the mission of 
security that I do not want to see any of it wasted as we go 
forward. And, I have committed to being as open and transparent 
as I need to be with, not only our current expenditures, but 
also the things that we have carried forward from the past, to 
ensure that we do not do that--and have invited oversight 
entities in to take a hard look at that.
    So, I am fully in your camp on that score. I cannot justify 
some of the actions that were taken in the past, but I can 
assure you that, at least under my watch, I will keep them from 
happening, again.
    Senator Ernst. Yes, we certainly cannot blame you for 
previous years' Administration, but the thoughtful approach 
that you are taking is very much appreciated by many of us--and 
we hope that we can see that at all levels of TSA--and we hope 
to see continuous improvement. So, thank you very much. I 
appreciate it.
    Admiral Neffenger. Thank you.
    Senator Ernst. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Ernst. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman. I want to thank all of 
you for being here, today.
    I wanted to ask Admiral Neffenger--there were some pieces 
of the Federal Aviation Administration (FAA) reauthorization 
bill that recently passed the Senate, including an amendment 
that I was a part of, addressing insider security threats, as 
well as an amendment focusing on the TSA PreCheck Enhancement 
Act--to ensure that you are able to expand that program.
    Are both of those pieces important to get passed?
    Admiral Neffenger. We are supportive of both of those 
pieces of legislation. They codify some things that we are 
already doing. I think that is important, because you want to 
ensure that you put good institutional practices in place for 
the future. So, both of those are positive for TSA.
    Senator Ayotte. Good. Well, I hope that the House will take 
up the FAA reauthorization.
    I wanted to ask about--Admiral, as you state, they are 
concentrating on improving TSA protocols, retraining and 
refocusing the workforce, and driving technological 
improvements. One thing that you have not really mentioned, as 
an existing tool that could do that, is the Screening 
Partnership Program (SPP), where TSA acts as the oversight 
entity, but not the security operator--contracting with 
security companies. And so, what I have heard is that there are 
long waiting lines to get applications approved and that TSA 
does not seem to be that supportive of this program.
    Particularly, as we look at this program--just to use an 
example, in Portsmouth, New Hampshire, at Portsmouth 
International Airport at Pease--that is a SPP airport--and one 
of 22 airports, nationally, in the SPP. Unfortunately, what I 
have heard, from my local airport, is that TSA has imposed 
contracting limitations on Pease and the security contractor, 
which limit the flexibility of the staff at the airport to 
respond to dynamic needs. So, I guess I would like to know--it 
seems to me, when we have seen, for example, the implementation 
of the SPP partnership at San Francisco International Airport--
are you interested in also looking at a vibrant Screening 
Partnership Program? And, does the Agency see SPP as a way to 
consider reducing lines? So, what is your view of this program?
    And, I do have a follow-up comment, because, having looked 
at what the Inspector General and also GAO has looked at, in 
this program, I know there is an outstanding issue, where TSA 
has not shared with the Congress--or with those who are 
conducting oversight--the cost estimates, so that we can, as 
policymakers, really compare the SPP programs to the fully TSA-
run programs and decide what is the most efficient, effective 
way to operate security at the airports.
    Admiral Neffenger. Thank you, Senator. When I came into 
this job, I was very interested in understanding the SPP 
program better. As you know, that is a program where an airport 
can request to bring in a private, contract screening 
workforce. That workforce is contracted to the Federal 
Government through TSA.
    Senator Ayotte. Right.
    Admiral Neffenger. But, they can choose to do so if they 
like. And, I have been committed to making that as 
straightforward a process as possible. In fact, we have 
streamlined, significantly, the application process over the 
course of this past year, so that they do not have long waits. 
It is governed, certainly, by the Federal Acquisition Rules 
(FAR), so there is a certain amount of waiting that is required 
just for the announcement, the bid process, and so forth. But, 
we have streamlined that significantly.
    I do not know the problem in Portsmouth and I will look 
into that for you, because I am not aware of the specifics of 
that case.
    Senator Ayotte. OK. Well, I appreciate it.
    Admiral Neffenger. So, I will check into that. I would hope 
that it is not the case that there is anybody making it more 
difficult. We are officially neutral. If an airport wants to 
use a private screening contractor, we will work with them to 
ensure that they----
    Senator Ayotte. So, one thing I wanted to follow up with 
Ms. Grover on--as I understand, even though Congress has made 
this request, TSA has not yet reported cost comparisons, 
between the Federal and the private screening at SPP airports, 
to us, as policymakers. Is that true?
    Ms. Grover. At the time of our report, which was in 
November 2015, that is what we found. I do not know if TSA has 
taken actions over this past winter, but we did recommend that 
they should provide regular information to you about the 
relative costs.
    Senator Ayotte. To my knowledge, it has not been produced. 
Has it been, Admiral?
    Admiral Neffenger. Well, we have a deadline at the end of 
this month to provide to GAO those costs, so we have done that. 
It, now, includes the so-called ``imputed costs.'' The issue 
was that we were using just the costs to TSA, but it did not 
include retirement costs and so forth, which the rest of the 
Federal Government would pick up. So, now, the ``imputed 
costs'' are those things that are outside of the TSA budget, 
but that are still costs to the taxpayer for an employee at 
TSA. That is the piece that needed to be added in to give the 
full burden cost of----
    Senator Ayotte. Are we doing any comparisons on wait lines 
between the different programs and on this issue of management, 
in terms of efficiency, between the two programs? Are we going 
to get that information?
    Admiral Neffenger. We have, actually, done that. And, what 
we are seeing is comparable across the system, whether you are 
a private screening workforce or a Federal workforce. It has to 
do with making sure that the staffing is in place and that the 
staffing allocations are correct. But, right now, we are 
seeing, roughly, comparable wait times across the whole 
system--and, as I said, by really focusing on the biggest-
volume airports, there has been a dramatic improvement in our 
ability to manage the lines effectively.
    Senator Ayotte. Well, I hope that, with the information 
being transmitted to GAO, we will have an opportunity to see 
that analysis as well. Thank you.
    Chairman Johnson. Thank you, Senator Ayotte.
    I tell you, the one thing I love about this Committee is 
that the Members ask great questions. And, I want to quickly 
follow up on the SPP program. We talked about costs. We talked 
about the metrics. Is it the exact same process? Are those 
partners able to do it a different way or do they do it the 
exact same way that TSA does it?
    Admiral Neffenger. They train with TSA. They train at the 
TSA Academy. They are trained to the same standards. And, you 
have a Federal Security Director, a TSA employee, who manages 
the contract of that workforce or works with the contractor to 
manage the workforce. So, they should be performing to the same 
standards across the system. And, that is how----
    Chairman Johnson. So, there would not be innovation on the 
part of those partners, in terms of screening. It is really 
done the exact same way.
    Admiral Neffenger. Well, it currently is.
    Chairman Johnson. That process--I do not want to say 
``impose,'' but, basically, they are required to do it the same 
way.
    Admiral Neffenger. There is, currently, a set of standards 
provided. You are right, yes, sir.
    Chairman Johnson. Let us see here. Senator Peters?

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. I would like to 
thank our panelists for being here today and for your work. 
This is, obviously, tough work--the fact that you have to find 
a needle in a haystack, based on the numbers that are going 
through--but if that needle gets through, obviously, the impact 
could be catastrophic. So, we appreciate your efforts to keep 
us safe, but also to move us through very efficiently, as 
people are getting on those airplanes--and it is going to take 
the concerted effort of everybody to make that happen.
    We have, certainly, heard the horror story of what happened 
in Chicago--the delays that occurred there--and that have 
happened on, I think, a few occasions. But, I want to get a 
sense of what is happening around the country. Admiral, you 
talked about your focus on some of the major airports, but, 
obviously, we have many airports people are going through. 
Where are we, in terms of the overall system of airports? Are 
there a number of airports that you are concerned about? How 
would you break that down--the places where we have problems--
as a percentage of the whole system?
    Admiral Neffenger. Well, I think that the positive side of 
this is that we are not seeing problems--if you take the top 20 
airports, which represent about 58 percent of the daily travel 
volume--these are the big hub airports and then the lesser hub 
airports associated with them. The remaining 430 or so are 
really doing pretty well. It is a pretty healthy system. And, I 
look at this across--I see the results of every airport every 
day. And, we are, generally, moving people very effectively 
through the smaller airports. Every now and then you get a spot 
problem, because you will have an unexpected surge of people 
coming through, but, for the most part, they are moving very 
well.
    Where we have seen the problems, consistently, have been in 
those top 20 airports. When you get stories of long wait times, 
it is there, which is why I really wanted to retool our 
approach to this, focusing, specifically, on those airports and 
making sure that you get the resources in there to get ahead of 
the expected surge of people coming. We get good data from 
reservation systems and the airlines on who to expect--make 
sure that you get your lanes manned at the time. So, I think 
that the positive side is, if you can work on those 20 
airports, you can really, for the most part, solve the problems 
in the whole system.
    Senator Peters. Well, speaking of one of those airports, 
the Detroit Metropolitan Airport, which is one that I hear 
about regularly--I travel through there as well. I will say, 
from my personal experience, when I have traveled--at least at 
the times that I have traveled--the volumes have been similar 
to what I have experienced over the last few years--although we 
still get complaints from my constituents, particularly, in the 
morning hours. Could you address a little bit of what is 
happening in Detroit--the good, the bad, and the lessons 
learned that would be helpful in Detroit as well as at other 
airports?
    Admiral Neffenger. Actually, Detroit is a very good 
example. One, you have an exceptionally strong workforce 
there--a good workforce and a very stable workforce. We have 
been able to convert more of those employees to full-time 
positions. That is very helpful, because that immediately 
reduces attrition. A lot of people want full-time jobs. When 
they cannot get them, then they leave for a full-time job. You 
have a good management staff in place there and they have 
strong relations with the airport and the airlines that service 
it. I was, recently, in Detroit and had a chance to meet with 
the various partners in the airport environment. And, they all 
had--I believe, honestly so--good things to say about our folks 
there.
    What we have seen there is that it really is a matter of, 
first, ensuring that you get a checkpoint opened well in 
advance of the time that you expect the surge of passengers to 
come in. Second, that you work closely with the airlines and 
the airports to manage that surge, as it is moving from curb to 
ticket counter, to checkpoint. And then, more importantly, that 
you have fully staffed lanes. So, that is the absolute key to 
doing that. If you can do that, then you can, very efficiently, 
move those people through a line while doing the job the way we 
should--and moving them through.
    So, the lesson we learned from Detroit is, when they really 
got ahead of that--and, if you noticed, over Memorial Day 
weekend, they had exceptionally good numbers going through 
there. People moved through very efficiently. We did not have 
any extended wait times at all there.
    Senator Peters. Great. And, in the remaining time here, 
Admiral, I appreciate your efforts on acquisition and 
procurement reform--and changing those systems. Certainly, it 
was very disturbing to Members of this Committee--and others--
to see some of the media reports that occurred last year about 
equipment that was not performing the way it was advertised--
and that people were able to get through items, in some of the 
tests, that were done for the IG and others. To what extent, 
going forward, are we going to hold the contractors that design 
and build these machines to much higher standards than they 
have been held to in the past? And, they must be held 
accountable, because we simply cannot accept the types of 
failures that we have seen in the past.
    Admiral Neffenger. Well, I spent a lot of time with our 
major equipment contractors when I first came on board. And, we 
have had a lot of lengthy discussions about performance 
standards--performance of the equipment, maintenance of the 
equipment, and so forth--going forward.
    I am also very interested in seeing more participation by 
the private sector in the types of things that we are looking--
the types of capabilities that we need. I think that we need 
more open architecture--we need the ability for some of the 
really talented, innovative minds out there to participate by 
increasing our ability to do the job more effectively.
    Senator Peters. Thank you, Admiral.
    Chairman Johnson. Thank you, Senator Peters.
    By the way, when I am connecting in Detroit, it is really 
great for my FitBit challenges with my wife. A lot of long 
walks.
    Let us see here. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Not as much as Charlotte Douglas 
International Airport is a help for that, but that is a whole 
different issue.
    Thank you all. I have been here for your testimony, today. 
I think everyone has reiterated the same thing and we want to 
make sure that you hear, loud and clear, from all of us: Safety 
is the primary consideration. We never want there to be a 
situation where you just say, ``Let us speed everything up.'' 
In fact, that was part of our conversation even, a year ago, 
when you were going through the confirmation process. And, the 
concern with the TSA PreCheck line is that TSA PreCheck had 
become a TSA PreCheck line plus another randomized--and we had 
so many people going through it--it was all about speed and 
there was a sense, from us, to say, ``We are losing a sense on 
safety.'' And, obviously, from the IG's report as well, to come 
back and say, ``OK, we are also overly optimistic on staffing. 
So, we have a drop in staff and we have an increase in 
passengers and it is not rocket science to try to figure out 
why we have long lines to go through.'' So, I just want to make 
sure everyone hears, loud and clear, we are still focused on 
safety. It is not just about speed, but there are also plenty 
of people, myself included, that, as we travel through 
airports, see TSA workers standing around or not in a hurry, 
when people are waiting in very long lines. And so, I think 
people understand the safety, but they also want to see some 
efficiency in the process.
    With that, let me just highlight a couple of things that I 
want to be able to bring up--one we have already briefly 
discussed. That is the innovation that happened in Atlanta. I 
would like to be able to talk more about how that could be 
multiplied.
    My understanding is that Delta Air Lines spent about $1 
million researching a better way to do the TSA screening in 
their home airport, in Atlanta. They developed a system, 
partnered with TSA, and implemented the system. It has proven 
to be much faster. And, for $1 million, at that airport, their 
check-in is now much faster.
    The concern I have is: Where can we have more opportunities 
for the private sector to be able to engage with TSA to help 
innovate in other areas and to be able to--not only put private 
sector folks in places that are non-security, but to allow for 
better innovation in the process as well?
    Admiral Neffenger. Well, thank you for that question. This 
is where I see the greatest promise going forward. Originally, 
the whole idea came about as a result of seeing some of the 
work that had been done, in Europe, to create more efficient, 
more automated systems, as you move through. In discussions 
with a number of airports and airlines, shortly after I came 
in, I said that I was looking for opportunities to partner on 
some innovation pilots. Originally, it was just, ``Hey, can we 
do a couple of pilot projects?'' Delta Air Lines offered to 
jump in and purchase a couple of these automated systems. This 
happens to be one that is currently in use at Heathrow 
Airport--and they move very quickly. And, you are absolutely 
right. Just these first two lanes, alone, have shown tremendous 
promise, in terms of improving efficiency--about a 30-percent 
improvement, by their own count, in what we go through. So, I 
think that that is, certainly, a critical element of 
transforming the system.
    Other airlines and airports have come forward and said that 
they want to do the same thing. So, I put together an 
innovation project team, which is focused, specifically, on 
these public-private partnerships--managing it so you do not 
create a hodgepodge of systems out there. You really want to do 
something that makes sense and that takes advantage of existing 
technology--not just to automate the lane, but to look at the 
technology that can be added to that automation and that could, 
eventually, lead to electronic gates to let you into a 
checkpoint or that could move the identification (ID) check out 
to a kiosk--and then, you keep the person sterile as they come 
through--really building that true curb-to-gate security 
environment, as opposed to just focusing it all around the 
checkpoint.
    I am very excited we have a pretty good plan going forward. 
It is mapped out. We are building the architecture for that now 
with various airlines and airports that have expressed 
interest. We have about a dozen airports that have come 
forward--along with the airlines that service them--to talk 
about doing some of this transformation. And, this is happening 
over the course of the next 6 months.
    So, I am happy to provide you with a more detailed brief on 
that, but I think you would find it promising.
    Senator Lankford. I think you would find plenty of people 
that are willing to help you innovate in the areas that are the 
pinch points--like the bags, which have been noted--to try to 
find ways to be able to evaluate how we, actually, move people 
faster through this spot and still get the innovation we have.
    With the innovation and the technology piece of it, that 
would still be the expectation, I think, of everyone on this 
dais as well. Early on in TSA's history, there were a lot of 
overpromises made by some manufacturers. We overpurchased in 
some areas and ended up having, in warehouses, lots of 
equipment sitting there, unused. We, obviously, do not want to 
see that, nor do we want to have equipment put in place that 
says one thing and actually cannot fulfill what it is stated 
to, actually, do.
    So, we want to make sure that that process stays in place 
and that all of our equipment--so, not only purchasing the 
right amount, but also having the equipment that, actually, can 
fulfill what it is being asked to do. So, thank you for that. 
And, I would ask for your continued attention on things like 
the TSA PreCheck. In Oklahoma, we had a computer glitch for a 
while, where, suddenly, you could not sign up for TSA PreCheck 
for a period of time. There are lots of other ways to be able 
to, not only show innovation in getting people through the 
line, but also in getting people registered for TSA PreCheck. 
And so, we can get that background, so TSA PreCheck is really 
TSA PreCheck and more people are able to actually go through 
that process and be able to be checked off.
    So, I would appreciate continued attention to that as well 
from all of those contractors, around the country, that are 
doing that.
    Admiral Neffenger. Yes, sir.
    Senator Lankford. Thank you. I yield back.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. And, Admiral, it 
is great to have you here before us. You are talking to a 
pretty tough audience here, because we are all frequent flyers. 
And, I go back and forth from Ohio, every week, a couple of 
times, I guess. We are also, though, all TSA PreCheck, I would 
think, and so, when I am in the TSA PreCheck line in airports 
in Cincinnati, Columbus, or Cleveland, it is a lot shorter. It 
is not like Dulles International Airport or Ronald Reagan 
Washington National Airport, where a lot of people are in the 
TSA PreCheck program. And so, a lot of the questions we are 
asking you are not about TSA PreCheck, but about, how we can be 
sure and expedite everybody.
    And, by the way, the TSA folks who I deal with every week 
are courteous--they are professional--the vast majority of 
them. I remember being here at a hearing, recently, where 
Senator Carper said that he thanks them as he goes through--as 
I try to do. And, I say, ``Thank you for keeping us safe.'' 
They look at you kind of funny, like, ``No one has ever said 
that to me before.'' And, I think that was your experience, 
too.
    On the other hand, as taxpayers, they do all work for us. 
And, that customer service side of----
    Senator Carper. When I say that, people say to me, ``Are 
you Rob Portman?'' [Laughter.]
    Senator Portman. I go incognito through there.
    But, you talked a little about the training and performance 
measurement--and, again, I appreciate your leadership and I am 
glad you are there. We talked a second ago about what you have 
done, with regard to Mr. Roth's report that came out just 
before you were confirmed, in June of last year. But, in terms 
of the training, just quickly, on the customer service side, 
what are you doing, in terms of measuring performance and 
training?
    Admiral Neffenger. Well, that was one of my big concerns 
when I came in. In fact, I extend it beyond customer service. 
This is what true public service is all about: providing an 
important service to the public in a way that treats them with 
respect and dignity and that recognizes the inherent 
inconvenience of what you are doing. So, that is an important 
thing to do.
    So, we built that into our new TSA Academy training. So, 
for all of our new hires now, there is an entire component on 
what it means to be a public servant and who that public is 
that you serve. These are people who are your fellow citizens. 
And, there is a part of it where they say, ``Think of these as 
your family members''--assuming you like your family members. 
But, they say, ``Think of these people as your family members, 
as they are coming through.''
    So, I hope people are seeing--and, anecdotally, we are 
getting reports that people are seeing a difference among the 
workforce, as they come through--and we have done that back 
through the entire workforce. It takes front-line leadership to 
make it work, so we are also working on that first-line 
supervisory leadership training. That is critical. We need to 
do more of that in TSA. It just had not been done consistently.
    Senator Portman. I appreciate that attitude and that 
approach--and I know that is your personal approach. And, I do 
think, actually, it expedites the process as well. There is a 
safety aspect to this also--in addition to the fact that it is 
a matter of customer service for the taxpayers that are 
inconvenienced.
    This report from last June was incredibly troubling. Mr. 
Roth has not gotten to answer many questions--and I may not 
give you a chance here, either, but I am going to tell you 
about your report. Ninety-five percent of the time, TSA was not 
finding dangerous items. Security screeners failed to detect 
weapons, mock explosives, and other prohibited items 95 percent 
of the time. Shocking. This is before your time.
    We also found that there were 73 individuals employed by 
the aviation industry who were on terrorist ``watchlists.'' 
And, at the time, I asked some questions to you as a part of 
your confirmation. You indicated you were going to, 
immediately, put in place some things that Homeland Security 
Secretary Jeh Johnson was talking about, to address both of 
those issues--and that you were going to look at the more 
systemic problems.
    Can you give us a quick report--where are we on that 95 
percent? Mr. Roth said that you are continuing to do testing 
and audits, but you did not tell us what the percentage was. 
So, either of you, if you could answer that.
    Admiral Neffenger. I cannot talk about the percentage of 
what we are finding in open session, but, what I will tell you 
is that, we are better. As you know, one of the biggest 
concerns I had was to, first of all, find out why we had a 
failure rate of that magnitude. And, as it turns out, it was 
really that we were asking the front-line workforce to do 
something directly in opposition to what their job was. If 
their job is to ensure something does not get past a 
checkpoint, well, then you cannot ride them about moving people 
faster through a checkpoint. And so, if I put myself in the 
shoes of the front-line officers, they are torn, thinking, ``I 
am told I cannot hold things up, but I have something to look 
at.''
    So, we have gotten better at that. We retrained the whole 
workforce--and I think that we are significantly better. I am 
hoping that the Inspector General's testing bears that out, as 
we go forward.
    Senator Portman. Mr. Roth, do you have anything to say on 
that?
    Mr. Roth. As I indicated in my testimony, we are going to 
do some covert testing this summer. I will be candid in saying 
that we have taken a look at some of the red team testing that 
TSA has done. We think that our testing will be more objective 
and I think those results will be more accurate. So, we will 
wait and see what happens.
    Senator Portman. This Committee will be very interested in 
the results of that test. And, in terms of the employees on 
terrorist ``watchlists,'' I assume you are comfortable that 
that has been addressed?
    Mr. Roth. Yes. Just so we understand, there are two lists. 
One is the ``Terrorist Watchlist,'' itself. And, the other is 
the Terrorist Identities Datamart Environment (TIDE) database, 
which is the larger list that supports the smaller list. They 
did not have access to the larger list. It was, largely, 
bureaucratic inertia--not on TSA's part, but on DHS's part--as 
well as on the intelligence community's part. That has been 
fixed and we think that TSA now has all of the information it 
needs to be able to adjudicate those things.
    Senator Portman. My time has expired, but I am going to ask 
a question for the record, with regards to Cuba. I am very 
concerned about the agreement the Administration has made with 
Cuba. I am concerned about reports I hear of TSA opening--not 
eight, but another additional two airports without any of the 
kind of screening that we would consider acceptable. And, these 
are all going to be, as I understand it, points of departure to 
the United States. I know there has been travel, for instance, 
from Afghanistan to Cuba, and so on. So, I will ask questions 
for the record (QFRs) on that issue. But, I want to express my 
concern, right now. We need to be sure that those airports are 
fully vetted and have the proper security screenings in place.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. And, thank you 
for stepping up and serving your country once again, Admiral. 
We really appreciate this and we were very glad to confirm you. 
And, I can tell you, from this testimony and our dialogue, our 
trust has been well served.
    But, we have some business that needs to get taken care of. 
I tell people, occasionally, that, if you have ever been to a 
penitentiary and have the warden bring out a box, they have a 
box of handmade weapons--from toothbrushes that have been 
shaved off to just simply plastic knives that have been used to 
kill other people. And so, we have to be really careful that we 
do not overstate the risk that there is because, even though we 
are looking for traditional weapons, we let people on with 
knitting needles. So, we sometimes frustrate the public because 
they look at this through a lens of common sense.
    One of the things I want to ask is whether, when you look 
at the metrics--and it is for anybody here--and we look at this 
transition now to bag fees that has resulted in more people 
taking carry-ons, I believe. Has that been a problem? And, is 
there a way to pre-screen carry-on baggage that would help the 
line move quicker--and also would provide greater security, in 
terms of determining what is in the bags?
    Admiral Neffenger. I will start the answers on that. The 
first thing is, we have been working really closely with the 
airlines--to the extent possible--to enforce the ``one-plus-
one'' rule. It is the case that there is more stuff coming 
through a checkpoint--more carry-on baggage, by definition, is 
going to slow things down.
    The other thing is to encourage people to really double-
check their bag--pack wisely. A prohibited item in a bag of any 
type causes something to stop for a moment while it is being 
checked. So, we encourage people to double-check their bags and 
make sure that they have not put anything in there that should 
not go. There is very clear information on the website now, 
explaining what should not go in there. If they have any 
question at all, they can always ask somebody as they come into 
the airport.
    So, I think, trying to keep the number of bags coming 
through to a minimum--so the ``one-plus-one'' rule is very 
important--and many of the airlines are working very hard to 
enforce that. And then, ensuring that passengers just double-
check before they come through, because it will--one, it is an 
inconvenience to the individual that forgot that they left 
something in there.
    It is true that we find a lot of contraband items coming 
through. We had a phenomenal number of loaded weapons at 
checkpoints last year. It always astonishes me that people 
forget that they have a weapon in their bag when they come 
through. So, that, from my perspective, is one of the most 
important things we can do.
    We are looking at whether there are ways to do something 
different with carry-on baggage before you get to a checkpoint. 
But, again, that is a part of the technology improvements that 
we are considering.
    Senator Heitkamp. I would really encourage you to think 
outside of the box on what could happen with carry-on luggage, 
because--more time to screen that--we are all standing in line 
with our carry-ons, right? Those carry-ons could, with a couple 
of extra lines, be screened ahead of time, as we are moving 
through the line. And, I think that would give you more time to 
actually check the carry-on luggage.
    I can tell you, it is incredibly frustrating when you see 
someone bring something through that they should not have. Just 
a couple of weeks ago, I had a bottle of water in my backpack. 
How often do I fly? And, I have made that mistake. And so, you 
do not always know.
    I want to ask, finally, about the 2013 GAO report that 
noted that TSA could not provide evidence to justify its 
Screening of Passengers by Observation Techniques (SPOT) 
Program. GAO recommended that Congress should consider the 
absence of scientifically validated evidence for using 
behavioral indicators to identify threats to aviation security, 
while assessing the potential benefits and costs to making 
future funding decisions for aviation security. Obviously, DHS 
did not concur with GAO's recommendation.
    My question is: Have you reviewed that report? And, since 
you have been there, have you come to the same conclusion as 
DHS did, when they did the review initially?
    Admiral Neffenger. Well, I have reviewed that report and 
there are a couple of elements to this that I think are 
important.
    The first thing I did was figure out whether anybody else 
is doing behavioral detection of some sort. And so, quite a few 
law enforcement agencies around the world use it. There are 
other security agencies that do it. So, I think that there is 
some value in continuing to look at whether behavioral 
detection is a valid element to add in. It is never going to be 
a perfect system.
    That said, we are looking at how we can more effectively 
use the people that we have assigned as behavioral detection 
officers. As I said in my opening statement, we are pushing a 
lot of those people back into security screening duties this 
summer. We are having them work with K-9 teams, because I do 
think that there is some work to be done on the validation of 
the indicators--on the way in which we do behavioral detection. 
There may be some modifications that we will have to make in 
order to make it more scientifically valid.
    Senator Heitkamp. I do not want to belabor the point, but 
it is--and can be--a very effective tool at checkpoints--at 
border crossings. There is a science to this. The question is: 
Are you applying the right science?
    Mr. Chairman, thank you so much for the time.
    Chairman Johnson. Thank you, Senator Heitkamp.
    Just to pick up, that is really what Israel does, correct?
    Admiral Neffenger. They do. In fact, a lot of what the 
Israelis are doing has informed what we are doing--and we have 
trained with the Israelis on behavioral detection.
    Chairman Johnson. But, that is a far more intensive 
process, correct?
    Admiral Neffenger. It has more elements to it than we are 
currently using. That is correct.
    Chairman Johnson. There are a number of people proposing to 
force airlines to drop the baggage fees to allow more people to 
check bags. Do we really gain anything from that? We still have 
to run those bags through the detection system, correct?
    Admiral Neffenger. It is hard to know whether it would 
dramatically change the way things are. I think there is more 
to be gained by reminding people to minimize their carry-on 
baggage to the ``one-plus-one'' rule that the airlines require. 
That makes things a lot smoother at the checkpoint. I have 
concerns about the baggage system's ability to handle checked 
bags without some modifications to the way we are currently 
doing it, in some airports. So, what I have committed to doing, 
with the airlines and airports, is to work on minimizing the 
amount of carry-ons, because a lot of that stuff gets gate-
checked anyhow. I would just as soon prefer it does not come 
through the checkpoint if it going to be gate-checked on the 
plane--and then ensuring that we have the appropriate staff 
there to handle it.
    Chairman Johnson. So, again, you are kind of confirming my 
suspicion that we do not gain a whole lot from that--and I, 
basically, agree with that. I think there is an awful lot to be 
said for having the passenger stay with their bag, just in 
terms of security as well.
    Without getting into the details of the failure of the AIT 
machines, has there been any thought given to having an AIT 
machine followed by a metal detector?
    Admiral Neffenger. We have looked at that. And, in fact, as 
we look at what I call ``transformation''--but really changing 
the thinking behind screening--I want to get away from what is, 
essentially, a static system. We are looking at systems that 
integrate that technology. The challenge is that you have to be 
careful, because then metal detectors go off on people with 
artificial hips. So, there may be a way to do it. But, we are 
looking at ways to integrate more of the technology--and that 
is why I really want to activate the private sector more 
effectively than we have, because I think that there are ways 
to do this that are smarter.
    Chairman Johnson. Generally, the people who know they are 
going to set off a metal detector can talk about something, but 
that would really----
    Admiral Neffenger. Yes, sir.
    Chairman Johnson [continuing]. Improve security, 
dramatically, would it not--if people went through both?
    Admiral Neffenger. Go ahead.
    Chairman Johnson. General Roth.
    Mr. Roth. Again, the two different machines look for two 
different kinds of things.
    Chairman Johnson. Correct.
    Mr. Roth. And, my understanding, as far as the TSA's 
protocols now, when there is an alarm on the AIT that is, for 
example, suspicious, they have the ability then to run people 
through----
    Chairman Johnson. But, again, the failure--and I do not 
want to go into detail, but I have seen videos. There is a real 
problem, in terms of what one machine detects and what the 
other one does not.
    Mr. Roth. Correct.
    Chairman Johnson. So, if you would go through both, I would 
think that you would dramatically increase the level of 
security.
    Mr. Roth. I will defer to TSA on that. Our testing has not 
shown that.
    Chairman Johnson. Admiral.
    Admiral Neffenger. What I would say is, it gets challenging 
to talk about this in open session. And, I would be happy to 
sit down with you, in closed session, to do so. But, we are 
looking at those kinds of capabilities. I am concerned about 
what one can do and what the other cannot do. I think the 
canines play a role, here and if I could sit down with you----
    Chairman Johnson. So do I. OK. Well, we will talk about 
that in a closed session.
    Admiral Neffenger. OK.
    Chairman Johnson. And, again, listen, I truly appreciate 
reading the testimony. It came across very clear. As General 
Roth talked about, you are doing a great job at really looking 
at this honestly, admitting you have a problem and critically 
assessing what has happened in the Agency. So, I just want to 
ask the Inspector General, on a scale of 1 to 10, in terms of 
critical assessment, we have gone from what to what, in terms 
of improvement?
    Mr. Roth. I mean, we have gone from night to day. I cannot 
put a number on it, but we went from a cultural situation, 
where we were fought at every turn, to one in which they now 
embrace oversight in a way that, I think, is a very sort of 
positive method.
    Chairman Johnson. So, Admiral, that is to your credit and 
thank you for your service in doing that.
    Now, let me ask you the harder question. So, that is the 
first step in solving the problem. How about the actual 
implementation of the solutions? Where are we? Let us say we 
were at one. Where are we now, on a scale of 1 to 10?
    Mr. Roth. I mean, we have a number of challenges--I will 
not underestimate it. With regard to the checkpoint and the 
covert testing, there is a 23-point plan that TSA has put into 
place. We are, generally, satisfied with the progress they are 
making. It is by no means complete. But, there are issues, not 
just at the checkpoint. There are issues with regard to TSA as 
a contract administrator, for example. There are issues as far 
as TSA as a regulator with local airports--how well they are 
regulating the local airports. We have considerable concerns 
about insider threat and the fact that there is a--while the 
Administrator talked about the recurrent vetting that occurs--
the criminal vetting, it is a very static process. You are 
either convicted of certain offenses--enumerated offenses--or 
you are not. But, there is not a holistic look at an airport 
worker, who has unrestricted access to aircraft--unescorted and 
unrestricted access to aircraft. They are either sort of 
convicted or not convicted. And, if they are not convicted, 
there is no holistic vetting that would occur, for example, 
that I am familiar with--with Federal employees--where we look 
at a whole range of things before we determine whether they are 
trustworthy.
    Chairman Johnson. So, I hate putting words in people's 
mouths, but, from the standpoint of taking the first step in 
solving a problem--it is admitting we have one. We have really 
taken that step.
    But, in terms of, actually, solving the problem, you would 
say that we have a long way to go?
    Mr. Roth. That is correct. We did not get into this 
overnight and we are not going to----
    Chairman Johnson. Admiral, you would probably agree with 
that, correct?
    Admiral Neffenger. I would agree with that. I think that we 
have made some substantial progress in really enumerating what 
some of these issues are. But, these are issues that will take 
some time to correct.
    Chairman Johnson. Trust me. I do not envy your task. Again, 
God bless you for your service. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you very much, Mr. Chairman.
    I would like to talk a little bit about the Senior 
Executive Service (SES). I understand, Mr. Neffenger, that the 
bonuses that were paid to the former Assistant Administrator 
happened before your time, but there was $90,000 in bonuses 
paid to the Assistant Administrator of the Office of Security 
Operations at the same time that all of those tests were 
failing--where the IG was conducting the tests and showing that 
67 out of 70 weapons got through. And, those bonuses were paid 
in a way to hide them. They were paid over time, obviously--
clearly exceeding a 20-percent cap.
    I know that you have made changes to make sure that does 
not happen again, but this is really a symptom of this Senior 
Executive Service, I think, and the lack of reform that has 
occurred with the SES.
    I like to point out every time I get a chance, on the 
record, how the Senior Executive Service began. And, it began, 
frankly, as an idea that I think the Chairman would agree 
with--that you need to get talent in management and government. 
So, the idea is that you would hire competitively with the 
private sector and these managers would go from Agency to 
Aagency and gain expertise.
    Well, that has long since been abandoned. These are people 
who burrowed in one agency, that hang out long enough to figure 
out how to get an SES position, and then they get paid a lot 
more--and this is where we have seen a lot of abuse, in terms 
of bonuses.
    So, let me ask you this: With your reforms, is there any 
connection between bonuses paid and whether the Agency is 
succeeding? In the private sector, the bonus pool changes based 
on how the company did. And, it has not been that way in 
government. I do not think anybody, looking objectively at TSA 
over the last couple of years, would say that the bonus pool 
should be really big.
    So, are you now tying bonuses to the performance of the 
Agency and not just the performance of the individual?
    Admiral Neffenger. It is a combination of both, now--and I 
want to just also preface it--or add--that I have severely 
limited both the type and the number of bonuses that can be 
handed out in the Agency. And, I have put controls on it above 
me. My concern was that the Agency had the ability to 
independently assign bonuses. I now require Department 
oversight for that--and I have asked the Department to do that.
    So, I am a strong believer in controls. I believe that 
there is a need to have the ability to get bonuses when people 
have done good work. You want to keep good people in 
government. So, the notion and the practice of bonuses is not, 
necessarily, a bad one, but it has to be managed carefully--it 
has to be controlled and it has to be appropriate.
    Senator McCaskill. Because, if you look at the data, no one 
could, objectively, look at the data and say that TSA has high 
marks, in terms of the things you look at for management, in 
terms of morale and turnover--on all of the measurements out 
there. So, I think you are trying to do better, in that regard. 
I think we need to look at SES reform in a larger capacity--not 
just at TSA. But, I think there are just a lot of issues with 
the Senior Executive Service.
    I also have some serious concerns, related to this, about 
whistleblower retaliation. I read, with interest, the article 
that was published, in April, about the high level of 
whistleblower retaliation at TSA. The case that really struck 
me was the man who took his case all of the way to the Supreme 
Court and won on whistleblower retaliation--that had been 
wrongfully fired and he lost 10 years--it took him 10 years to 
win. He lost 10 years of promotions and TSA said, ``Well, we 
cannot speculate how much he would have been promoted in 10 
years.'' They put him back in his other job, and, frankly, he 
is still getting passed over to this day.
    I would ask you, Mr. Roth, how does TSA compare to other 
DHS components, as far as the number of whistleblower 
complaints and the number of whistleblower retaliation 
complaints?
    Mr. Roth. We have not done a study on that. That is 
something, certainly, that would be interesting to know, so I 
can take that back.
    Senator McCaskill. Yes. And, what can we do about the lost 
years of salary, compensation, and promotion for the time 
period that someone litigates them for being treated unfairly?
    Admiral Neffenger. Well, the individual you are speaking of 
did get full back pay for that full 10-year period--along with 
all of the associated cost-of-living (COL) increases that would 
have occurred during that time--in addition to other things. 
So, he got a sizable payment for back pay--and it included the 
cost-of-living increases.
    I understand that he has ongoing litigation, so it would be 
inappropriate for me to comment any more on that, because I 
want to make sure that he gets the appropriate due process. I 
am committed to supporting people who bring forward complaints. 
I am committed to them being treated fairly and I absolutely 
will not stand for retaliation inside the Agency.
    I understand that there have been allegations of that and, 
in one case, proof of that, in the past. My position is, I do 
not want to inadvertently bias any action going forward, so if 
you have pending litigation, we will support that going 
forward. We will work with the Office of Special Counsel (OSC), 
as necessary and, more importantly, I will take swift action 
against people if they do something, on my watch, that 
indicates that they have retaliated.
    Senator McCaskill. I would love to get a response to the 
people whose stories are laid out in the New York Times 
article, as to the Agency's position on these people, what 
occurred, and how this has been made whole. The woman who was 
forced to leave her assignment after she complained--there are 
a number of them in here, as you know. It is pretty damning. 
And, it says it is much higher than, for example, the Internal 
Revenue Service (IRS), which has many more employees, in terms 
of the rate of complaints. It went up significantly--the number 
of complaints. So, I want to take a look at that.
    My time is up. I would say, on the record, that I hope you 
are thinking about every airport--you have a group of frequent 
flyers up here. Everyone flies home every weekend. No one uses 
TSA more than all of us, because we are flying twice a week 
coming back and forth to work. And so, we see an awful lot in 
airports. I am bombarded with kiosks wanting to sell me 
everything from sunglasses and pillows to cases for my iPhone. 
I would love to see a kiosk for TSA PreCheck. I mean, how 
simple would it be to put up a kiosk, in the airport, for 
someone to sign up for TSA PreCheck. It would not be that 
expensive and, frankly, you could probably staff it, especially 
in the non-peak hours, with people who are waiting for surges 
of people coming for flights. I bet you could do it pretty 
cost-effectively at $85 a pop. That is a hell of a lot more 
than a lot of cell phone covers.
    Admiral Neffenger. Well, I think the vendor is looking at 
dramatically increasing the number of mobile sites just for 
that reason.
    Senator McCaskill. Kiosks. Not an office somewhere that you 
have to go----
    Admiral Neffenger. No, no. These are----
    Senator McCaskill [continuing]. Down into the bowels of the 
airport, back by the lost luggage, to find it. I am talking 
about right there, neon letters, with a big smiley face. Maybe 
we could even sell cell phone covers at the same place. Thank 
you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Carper.
    Senator Carper. Just to follow up on that, E-ZPass is not 
the same. We have a much different vetting process with E-
ZPass, as opposed to TSA PreCheck. But, when you come into 
Delaware, we collect tolls on I-95. There is a fairly easy 
place--very visible, right on the road--to stop off and, if you 
want to get an E-ZPass, you can. The same thing with our 
``north-south'' highway that goes down to our beaches. It is 
easy to just pull off and get yourself an E-ZPass. So, I think 
that is a good idea.
    I am going to ask a series of questions and I will ask for 
very brief responses, if you will, Admiral. I apologize to 
General Roth and I apologize to Jennifer for not asking more 
questions, but my colleagues have asked several that I wanted 
to, so thank you very much for the good work that you and your 
teams are doing to make TSA better. Make them better.
    Admiral, I was struck by the apparent success of TSA's 
efforts to reduce wait times ahead of the Memorial Day holiday. 
According to the news reports that we talked about here today, 
security checkpoint wait times were mostly average--I think 99 
percent of passengers waited fewer than 30 minutes to pass 
through screening--with 93 percent waiting under 15 minutes. 
Just take a minute and tell us how you and your team were able 
to cut wait times in such short order.
    Admiral Neffenger. Really, four things.
    First, we got new resources through the reprogramming: 
thousands of overtime hours, we were able to convert people 
from part-time to full-time, and we moved additional K-9 units 
into the largest airports. So, that was number one.
    Second, the standing up of a national--focusing on the top 
7 airports, primarily--looking across at the top 20 in addition 
to that. That allows us to address problems at the places where 
they begin.
    Third, having the National Incident Command Center to 
manage that on a daily basis--to look specifically at the 
checkpoint screening operations. And then, the daily phone call 
with each airport, Federal security director, and the airline 
partners in that airport, airport by airport, across the top 
airports.
    Senator Carper. Alright. I mentioned in my opening 
statement that we have included, in the appropriations 
legislation reported out of Committee, by the Senate 
Appropriations Committee, some additional monies for human 
resources, for personnel resources, for dogs--canines--and, 
maybe, for some infrastructure improvements and technology 
improvements. Do you still believe that is going to be needed?
    Admiral Neffenger. Absolutely, yes, sir.
    Senator Carper. That is all I need. Thank you very much.
    Talk to us about the role that your employees have played, 
in terms of--they are on the front lines. They see this stuff 
every day and talk to people every day. How do you ask them for 
their ideas and make sure that their input is gathered and 
actually acted on?
    Admiral Neffenger. Well, I think we still need to become 
better at that, but what I have tried to do is to--both 
anecdotally and more formally--solicit information on how best 
to do the job that we are doing. So, we bring them in on short-
term details to our technology office. They work in our test 
facility. They give us ideas as to how to improve what we are 
doing. When we were looking at these automated lanes, for 
example, we brought some front-line TSOs up and said, ``How 
would you run this thing? ''
    So, there is a lot of just great tactical knowledge that 
they have in their head on how to do this job better, from day 
to day. And, we are trying to capture that in a much more 
systematic way.
    Senator Carper. One of the ways I have always found to 
improve employee morale--whether it is in the Federal 
Government, the State, or some other regard--is training. Folks 
on my staff, particularly, folks in Delaware, love to come to 
D.C., where we have specialized training for them, regardless 
of what their jobs might be. Not only does it allow for folks 
to do a better job, but their sense of self-worth is enhanced 
as well. So, I want to encourage you to continue to do the 
training that is going on down in Glynco, Georgia at the 
Federal Law Enforcement Training Centers (FLETC).
    The other thing I want to ask is, you talked a little bit 
about the range of weapons that we find--that your folks find 
on passengers trying to get onto a plane. And, I think you 
actually have an Instagram feed to display some of those. Can 
you just take a minute and tell us, if you will--speak about 
some of the dangerous items that TSA screeners discover in 
carry-on baggage and at the checkpoint--and the importance of 
careful and effective security screening in order to identify 
some of the overt threats.
    Admiral Neffenger. Well, we have seen a lot of loaded 
handguns come through checkpoints. Last year, I believe it was 
somewhere around 2,700 handguns were confiscated at 
checkpoints. Many of these are not just loaded, but they have 
rounds in the chambers--so these are weapons that are 
dangerous.
    Two weeks ago, we had two smoke grenades--live smoke 
grenades--found in carry-on luggage coming through.
    You get a lot of inert items coming through--things that 
look like grenades, but those are of concern, too, because, you 
cannot tell from a distance. Quite a few knives, concealed 
weapons, and canes with knives--with swords embedded in them. 
You name it. And, somebody is trying to bring it through a 
checkpoint. Throwing stars, brass knuckles, and all sorts of 
stuff that you just do not want on an aircraft--in an aircraft 
environment--given what we know to be the way some people have 
been acting lately.
    Senator Carper. Good. The last thing I will say is that I 
was elected Governor in November 1992. Along with other newly 
elected Governors, in November 1992, we went to ``New Governors 
School'' 2 weeks after the election. It was hosted by Roy 
Romer, who was then the Chairman of the National Governors 
Association (NGA), the Governor of Colorado. I learned a lot. 
It was like 3 days and the faculty was existing governors and 
their spouses--the ``grizzled veterans,'' I called them. And 
then, there were the newbies--those who had just been elected--
Governors-elect and their spouses. And, one of the best lessons 
I learned during those 3 days was from one of the Governors, 
who said, ``When you have a problem--when you face a problem in 
your State as Governor--do not make a 1-day problem a 1-week 
problem or a 1-month problem or a 1-year problem. Own the 
problem. Take responsibility for the problem.'' Say, ``This is 
what we are going to do. We are going to fix this problem. 
Apologize and then do it.''
    And, the way I watch you perform in your role as the head 
of TSA, I am reminded of that advice. And, I do not know that 
you will ever be a Governor, but you are, certainly, prepared 
with the training you have gone through as well.
    I am going to close with the Preamble to the Constitution. 
We are very proud of the Constitution. Delaware was the first 
State that ratified the Constitution. For 1 whole week, we were 
the entire United States of America--a pretty good week. And, 
the Preamble to the Constitution begins with these words: ``We 
the people of the United States, in order to form a more 
perfect union . . .'' It does not say to form a perfect union. 
We did not. We continued to amend the Constitution over time. 
And, the idea is to always get better. How do we get better? 
And, clearly, TSA is doing a better job. We are grateful for 
that. We are anxious to know how we can help to make that 
happen even more expeditiously.
    We want to thank our friends at GAO and the IG's office for 
the good work that they are doing to help, if you will, the 
wind beneath your wings--and to say, ``Let us keep up the good 
work.''
    The last thing is, we were in Africa about a year ago with 
our family on a family vacation. I heard this old African 
saying: ``If you want to go fast, travel alone. If you want to 
go far, travel together.'' And, in this instance, this is a 
team sport. We are going to travel together. And, I think, to 
the extent we do, we are going to go a long ways toward where 
we need to go. Thank you--so that other people can get where 
they need to go.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    Again, I want to thank our witnesses. Admiral Neffenger, 
really, we do appreciate the enormity of your task--the 
significant challenge--but I think you have really shown that 
you have taken some pretty great strides. And, that first step 
is admitting we have the problem. And then, starting to work in 
a very methodical and very military fashion, quite honestly, 
which I think we all appreciate.
    Inspector General Roth and Ms. Grover, thank you for your 
contribution to this effort as well. Again, thank you for your 
time, your testimonies, and your answers to our questions.
    With that, the hearing record will remain open for 15 days 
until June 22 at 5 p.m. for the submission of statements and 
questions for the record. This hearing is adjourned.
    [Whereupon, at 11:57 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
